                        U1'ITED STATES DEPARTMENT OF EDUCATION


  •
February 25, 2014
                             OFFICE OF ELEMENTARY AND SECONDARY EDUCATION




Honorable R. Gil Kerlikowske
Director, Office of National Drug Control Policy
Executive Office of the President
Washington, D.C. 20500

Dear Director Kerlikowske:

In accordance with the Office of National Drug Control Policy (ONDCP) Circular Accounting of
Drug Control Funding and Performance Summary, enclosed please find detailed information
about performance-related measures for key drug control programs administered by the U.S.
Department of Education contained in the US. Department ofEducation's Performance
Summary Report for Fiscal Year 2013, along with the Department of Education Assistant
Inspector General's authentication of the management assertions included in that report.

Please do not hesitate to contact me if you have any questions about this information.

                                     Sincerely,


                                  ~L-G-
                                     David Esquith
                                     Director>Office of Safe and I:Iealthy Students


Enclosure # 1: Department of Education Performance Summary Report for Fiscal Year 2013,
February 25, 2014

Enclosure #2: Authentication letter from Patrick J. Howard, Assistant Inspector General for
Audit Services, February 25, 2014




cc: Patrick J. Howard
Department of Education 





Performance Summary Report 


           Fiscal Year 2013 





              In Support of the

     National Drug Control Strategy




             February 25, 2014




 400 MARYLAND AVE.. S.W.. WASHINGTON. D.C. 20202
                   www.cd.gov
                                            U.S. Department of Education 


                          Performance Summary Report for Fiscal Year 2013 


                                                  TABLE OF CONTENTS 


Transmittal Letter .................................... .............. .. .... .... .. .. ..... ............................. ........... 1 


Performance Summary Information ................................................................................. 2 


          Safe and Supportive Schools ........... ..................................... ............................... 2 


          Safe Schools/Healthy Students .......... ... .............................. ................... .. ... ... ... ....9 


          Grants to Reduce Alcohol Abuse .......... .............................................................. 14 


          Student Drug Testing ............... .......................................... .............................. 21 


Assertions .... .. ...... .. ... ...... ................................... ............................... ............................ 23 


Criteria for Assertions .................................................................... ............................... 24 

                     UNITED STATES DEPARTMENT OF EDUCATION

                           OFFICE OF ELEMENTARY AND SECONDARY EDUCATION




February 18, 2014

Kathleen S. Tighe
Inspector General
U.S. Department of Education
400 Maryland Avenue, S.W.
Washington, DC 20202-1510

Dear Ms. Tighe:

As required by Office of National Drug Control Policy (ONDCP) Circular Accounting of
Drug Control Funding and Performance Summary, enclosed please find detailed
information about performance-related measures for key drug control programs
administered by the U.S. Department of Education, in accordance with the guidelines in
the circular dated January 18, 2013. This information covers the Safe and Drug-Free
Schools and Communities program, which is the Drug Control Budget Decision Unit
under which the 2013 budgetary resources for the Department of Education are
displayed in the Fiscal Year 2014 National Drug Control Budget and Performance
Summary.

Consistent with the instructions in the ONDCP Circular, please provide your
authentication to me in writing and I will transmit it to ONDCP along with the enclosed
Performance Summary Report. ONDCP requests these documents by February 25,
2014. Please do not hesitate to contact me if you have any questions about the
enclosed information.

                                  Sincerely,


                              "~~-
                                  David Esquith
                                  Director, Office of Safe and Healthy Students




                    400MARYLAND AVE.. S.W.. WASHINGTON. D.C. 20202
                                    www.ed.gov
                FY 2013 Performance Summary Information

                             Safe and Supportive Schools

In FY 2010 the Department awarded the first round of awards under the Safe and
Supportive Schools (S3) grant program. Awards were made to State educational
agencies to support statewide measurement of, and targeted programmatic
interventions to improve conditions for learning in order to help schools improve
safety and reduce substance use. Projects had to take a systematic approach to
improving conditions for learning in eligible schools through improved
measurement systems that assess conditions for learning, including school
safety, and the implementation of programmatic interventions at the school level
that address problems identified by data.

Measure 1: Percentage of eligible schools implementing programmatic
interventions funded by Safe and Supportive Schools that experience a decrease
in the percentage of students who report current (30-day) alcohol use.

Table 1


Cohort    FY2009    FY2010 FY2011       FY2012   FY2013    FY2013    FY2014
          Actual    Actual     Actual   Actual   Target    Actual    Target

2010      n/a       n/a        n/a      58.0     60.9      73.9      77.6

The Measure. ED established several GPRA performance measures for
assessing the effectiveness of Safe and Supportive Schools grants. Four
measures were related to addressing the goals of the National Drug Control
Strategy. This measure was one of the four selected for that purpose.

FY 2013 Performance Results. For the FY 2012 Performance Summary Report
we noted, related to setting FY 2013 targets: "baseline data are currently not be
available on which to set these performance targets. These targets will be set by
May 2013 once baseline data are aggregated for the entire FY 2010 grant
cohort." Thus, the FY 2012 actual performance data are being reported here for
the first time, as well as the FY 2013 target set based on this baseline data. The
FY 2013 actual percentage of eligible schools implementing programmatic
interventions funded by Safe and Supportive Schools that experienced a
decrease in the percentage of students who report current (30-day) alcohol use
was 73.9 percent, exceeding the target set.

NOTE: The data from two grants in the FY 2010 coho.rt were excluded from both
the FY 2012 and FY 2013 actual percentages, as those data were deemed
invalid and not comparable to the data from the other grants in the cohort.
Grantees were advised in the Safe and Supportive Schools GPRA guidance to
include only schools that had fully implemented programmatic interventions with

                                         2

fidelity. The data for the two grantees that were excluded included a significant
number of schools that were at varying stages of program implementation and
did not meet this criterion. The two grantees are receiving additional technical
assistance related to performance data collection.

FY 2014 Performance Targets. The FY 2013 target was set based on a five
percent increase over FY 2012 actual performance (the baseline), and the FY
2014 target set based on a five percent increase over the FY. 2013 actual. These
targets were set based on previous experience with related state grant programs
at the Department focused on substance abuse prevention and school safety.

Methodology. These measures constituted the Department's indicators of
success for the Safe and Supportive Schools grant program. Consequently, we
advised applicants for a grant under this program to give careful consideration to
these measures in conceptualizing the approach and evaluation for its proposed
program. Each grantee was required to provide, in its annual performance and
final reports, data about its progress in meeting these measures.

To receive funds after the initial year of a multiyear award, grantees must
submit an annual continuation performance report that describes the progress
the project has made toward meeting the predefined benchmarks and
milestones. This performance report also provides program staff with data
related to the GPRA measures estabJished for the program.

Authorized representatives for the grant site signed the annual performance
report and, in doing so, certified that to the best of the signer's knowledge and
belief, all data in the performance report were true and correct and that the report
fully disclosed all known weaknesses concerning the accuracy, reliability, and
completeness of the data included. Generally, the Department relied on the
certification concerning data supplied by grantees and did not conduct further
reviews.

The National Center on Safe Supportive Learning Environments, the technical
assistance contractor for the S3 grant program, provided training on data
collection. They reviewed data submitted, and worked with grantees to seek
clarifying information and provide technical assistance if grantees were having
difficulty in collecting or reporting data for this measure.

For measures related to 30-day alcohol use, States calculated the percentage of
eligible schools implementing programmatic interventions that experienced either
an increase or decrease in the percentage of students who reported each
behavior or experience between year 1 and year 3, and this became the basis for
the formulation of the baseline (FY 2012 actual) on which subsequent targets
were set.




                                         3

Measure 2: Percentage of eligible schools implementing programmatic
interventions funded by Safe and Supportive Schools that experience an
increase in the percentage of students who report current (30-day) alcohol use.

Table 2

Cohort    FY2009 FY2010 FV2011         FY2012    FV2013     FY2013    FY2014
          Actual    Actual   Actual    Actual    Target     Actual    Target

2010      n/a       n/a      n/a       37.0      35.1       22.6      21.5

The Measure. ED established several GPRA performance measures for
assessing the effectiveness of Safe and Supportive Schools grants. Four
measures were related to addressing the goals of the National Drug Control
Strategy. This measure was one of the four selected for that purpose.

FY 2013 Performance Results. For the FY 2012 Performance Summary Report
we noted, related to setting FY 2013 targets: "baseline data are currently not be
available on which to set these performance targets. These targets will be set by
May 2013 once baseline data are aggregated for the entire FY 2010 grant
cohort." Thus the FY 2012 actual performance data is being reported here for
the first time, as well as the FY 2013 target set based on this baseline data. The
FY 2013 percentage of eligible schools implementing programmatic interventions
funded by Safe and Supportive Schoo11s that experienced an increase in the
percentage of students who report current (30-day) alcohol use was 22.6
percent, exceeding the target set.

NOTE: The data from two grants in the FY 201 O cohort were excluded from both
the FY 2012 and FY 2013 actual percentages, as those data were deemed
invalid and not comparable to the data from the other grants in the cohort.
Grantees were advised in the Safe and Supportive Schools GPRA guidance to
include only schools that had fully implemented programmatic interventions with
fidelity. The data for the two grantees that were excluded included a significant
number of schools that were at varying stages of program implementation and
did not meet this criterion. The two grantees are receiving additional technical
assistance related to performance data collection.

FY 2014 Performance Targets. The FY 2013 target was set based on a five
percent increase over FY 2012 actual performance (the baseline), and the FY
2014 target set based on a five percent increase over the FY 2013 actual. These
targets were set based on previous experience with related state grant programs
at the Department focused on substance abuse prevention and school safety.

Methodology. These measures constituted the Department's indicators of
success for the Safe and Supportive Schools grant program. Consequently, we
advised applicants for a grant under this program to give careful consideration to

                                        4

these measures in conceptualizing the approach and evaluation for its proposed
program. Each grantee was required to provide, in its annual performance and
final reports, data about its progress in meeting these measures.

To receive funds after the initial year of a multiyear award, grantees must
submit an annual continuation performance report that describes the progress
the project has made toward meeting the predefined benchmarks and
milestones. This performance report also provides program staff with data
related to the GPRA measures established for the program.

Authorized representatives for the grant site signed the annual performance
report and, in doing so, certified that to the best of the signer's knowledge and
belief, all data in the performance report were true and correct and that the report
fully disclosed all known weaknesses concerning the accuracy, reliability, and
completeness of the data included. Generally, the Department relied on the
certification concerning data supplied by grantees and did not conduct further
reviews .

The National Center on Safe Supportive Learning Environments, the technical
assistance contractor for the S3 grant program, provided training on data
collection. They reviewed data submitted, and worked with grantees to seek
clarifying information and provide technical assistance if grantees were having
difficulty in collecting or reporting data for this measure.

For measures related to 30-day alcohol use, States calculated the percentage of
eligible schools implementing programmatic interventions that experienced either
an increase or decrease in the percentage of students who reported each
behavior or experience between year 1 and year 3, and this became the basis for
the formulation of the baseline (FY 2012 actual) on which subsequent targets
were set.

Measure 3: Percentage of eligible schools implementing programmatic
interventions funded by Safe and Supportive Schools that experience an
improvement in their school safety score.

Table 3


Cohort    FY2009    FY2010 FY2011      FV2012     FV2013    FY2013     FY2014
          Actual    Actual   Actual    Actual     Target    Actual     Target

2010      n/a       n/a      n/a       59.0       62.0      72.9       76.5

The Measure. ED established several GPRA performance measures for
assessing the effectiveness of Safe and Supportive Schools grants. Four
measures were related to addressing the goals of the National Drug Control
Strategy. This measure was one of the fou r selected for that purpose.

                                         5

NOTE: The school safety score is an index of school safety that may include the
presence and use of illegal drugs (including alcohol and marijuana).

FY 2013 Performance Results. For the FY 2012 Performance Summary Report
we noted, related to setting FY 2013 targets: "baseline data are currently not be
available on which to set these performance targets. These targets will be set by
May 2013 once baseline data are aggregated for the entire FY 2010 grant
cohort." Thus, the FY 2012 actual performance data are being reported here for
the first time, as well as the FY 2013 target set based on this baseline data. The
FY 2013 actual percentage of eligible schools implementing programmatic
interventions funded by Safe and Supportive Schools that experienced an
improvement in their school safety score was 72.9 percent, exceeding the target
set.

NOTE: The data from two grants in the FY 2010 cohort were excluded from both
the FY 2012 and FY 2013 actual percentages, as those data were deemed
invalid and not comparable to the data from the other grants in the cohort.
Grantees were advised in the Safe and Supportive Schools GPRA guidance to
include only schools that had fully implemented programmatic interventions with
fidelity. The data for the two grantees that were excluded included a significant
number of schools that were at varying stages of program implementation and
did not meet this criterion. The two grantees are receiving additional techn ical
assistance related to performance data collection.

FY 2014 Performance Targets. The FY 2013 target was set based on a five
percent increase over FY 2012 actual performance (the baseline), and the FY
2014 target set based on a five percent increase over the FY 2013 actual. These
targets were set based on previous experience with related state grant programs
at the Department focused on substance abuse prevention and school safety.

Methodology. These measures constituted the Department's indicators of
success for the Safe and Supportive Schools grant program. Consequently, we
advised applicants for a grant under th is program to give careful consideration to
these measures in conceptualizing the approach and evaluation for its proposed
program. Each grantee was required to provide, in its annual performance and
final reports, data about its progress in meeting these measures.

To receive funds after the initial year of a multiyear award, grantees must
submit an annual continuation performance report that describes the progress
the project has made toward meeting the predefined benchmarks and
milestones. This performance report also provides program staff with data related
to the GPRA measures established for the program.

Authorized representatives for the grant site signed the annual performance
report and, in doing so, certified that to the best of the signer's knowledge and
belief, all data in the performance report were true and correct and that the report

                                         6

fully disclosed all known weaknesses concerning the accuracy, reliability, and
completeness of the data included. Generally, the Department relied on the
certification concerning data supplied by grantees and did not conduct further
reviews.

The National Center on Safe Supportive Learning Environments, the technical
assistance contractor for the S3 grant program, provided training on data
collection. They reviewed data submitted, and worked with grantees to seek
clarifying information and provide technical assistance if grantees were having
difficulty in collecting or reporting data for this measure.

For measures related to school safety scores, the improvement or worsening of
scores were calculated between the year 1 and Year 3, and this became the
basis for the formulation of the baseline (FY 2012 actual) on which subsequent
targets were set.

Measure 4: Percentage of eligible schools implementing programmatic
interventions funded by Safe and Supportive Schools that experience a
worsening in their school safety score.

Table 4


Cohort    FY2009 FY2010 FY2011         FY2012    FY2013    FY2013     FY2014
          Actual    Actual   Actual    Actual    Target    Actual    Target

2010      n/a       n/a      n/a       30.0      28.5      20.8      19.8

The Measure. ED established several GPRA performance measures for
assessing the effectiveness of Safe and Supportive Schools grants. Four
measures were related to addressing the goals of the National Drug Control
Strategy. This measure was one of the four selected for that purpose.

NOTE: The school safety score is an index of school safety that may include the
presence and use of illegal drugs (including alcohol and marijuana).

FY 2013 Performance Results. For the FY 2012 Performance Summary Report
we noted, related to setting FY 2013 targets: "baseline data are currently not be
available on which to set these pertormance targets. These targets will be set by
May 2013 once baseline data are aggregated for the entire FY 2010 grant
cohort." Thus the FY 2012 actual pertormance data is being reported here for
the first time, as well as the FY 2013 target set based on this baseline data. The
FY 2013 actual percentage of eligible schools implementing programmatic
interventions funded by Safe and Supportive Schools that experienced a
worsening in their school safety score was 20.8 percent, exceeding the target
set.


                                        7

NOTE: The data from two grants in the FY 2010 cohort were excluded from both
the FY 2012 and FY 2013 actual percentages, as those data were deemed
invalid and not comparable to the data from the other grants in the cohort.
Grantees were advised in the Safe and Supportive Schools GPRA guidance to
include only schools that had fully implemented programmatic interventions with
fidelity. The data for the two grantees that were excluded included a significant
number of schools that were at varying stages of program implementation and
did not meet this criterion. The two grantees are receiving additional technical
assistance related to performance data collection.

FY 2014 Performance Targets. The FY 2013 target was set based on a five
percent increase over FY 2012 actual performance (the baseline), and the FY
2014 target set based on a five percent increase over the FY 2013 actual. These
targets were set based on previous experience with related state grant programs
at the Department focused on substance abuse prevention and school safety.

Methodology. These measures constituted the Department's indicators of
success for the Safe and Supportive Schools grant program. Consequently, we
advised applicants for a grant under this program to give careful consideration to
these measures in conceptualizing the approach and evaluation for its proposed
program. Each grantee was required to provide, in its annual performance and
final reports, data about its progress in meeting these measures.

To receive funds after the initial year of a multiyear award, grantees must
submit an annual continuation performance report that describes the progress
the project has made toward meeting the predefined benchmarks and
milestones. This performance report also provides program staff with data related
to the GPRA measures established for the program.

Authorized representatives for the grant site signed the annual performance
report and, in doing so, certified that to the best of the signer's knowledge and
belief, all data in the performance report were true and correct and that the report
fully disclosed all known weaknesses concerning the accuracy, reliability, and
completeness of the data included. Generally, the Department relied on the
certification concerning data supplied by grantees and did not conduct further
reviews.

The National Center on Safe Supportive Learning Environments, the technical
assistance contractor for the S3 grant program, provided training on data
collection. They reviewed data submitted, and worked with grantees to seek
clarifying information and provide technical assistance if grantees were having
difficulty in collecting or reporting data for this measure.


For measures related to school safety scores, the improvement or worsening of
scores were calculated between the year 1 and Year 3, and this became the


                                         8

basis for the formulation of the baseline (FY 2012 actual) on which subsequent
targets were set.
                          Safe Schools/Healthy Students

Measure 1 : The percentage of grantees demonstrating a decrease in substance
abuse over the three-year grant period. (Safe Schools/Healthy Students - FY
2006 cohort)

Table 5

Cohort    FY2009    FY2010     FV2011    FY2012     FY2013    FY2013 FY2014
          Actual     Actual    Actual     Actual    Target     Actual   Target
2006      66.7      n/a       n/a        n/a       n/a        n/a       n/a

The measure. This performance measure is for the Safe Schools/Healthy
Students (SS/HS) initiative, a joint project of the Departments of Education,
Health and Human Services, and Justice. The initiative provided grants to local
educational agencies to support the development and implementation of a
comprehensive plan designed to prevent student drug use and violence and
support healthy youth development.

This measure, one of four for this initiative for the FY 2004, 2005, and 2006 grant
cohorts, focused on one of the primary purposes of the initiative - reduced
student drug use. This measure was directly related to the National Drug Control
Strategy's goal of preventing drug use before it begins. Grantees selected and
reported on one or more measures of prevalence of drug use for students. For
the FY 2004 - 2006 cohorts, the items selected by grantees to respond to this
measure were not common across grant sites but, rather, reflected priority drug
use problems identified by sites.

FY 2013 Performance Results. FY 2013 targets were not set, nor actual
performance data aggregated for any grant cohorts, as grant projects were no
longer active.

FY 2014 Performance Targets. The 2006 grant cohort was not operating after
FY 2012. Thus, no targets were set for FY 2014.

Methodology. Data for these grant cohorts were collected by grantees, generally
using student surveys. Data were furnished in the second of two semi-annual
performance reports provided by grantees each project year. If grantees
identified more than one measure of drug abuse or provided data for individual
school-building types (for example, separate data for middle and high schools),
grantees were considered to have experienced a decrease in substance abuse if
data for a majority of measures provided reflected a decrease. If a grant site
provided data for an even number of measures and half of those measures
reflected a decrease and half reflected no change or an increase, that grant site
was judged not to have demonstrated a decrease in substance abuse. While

                                        9

most sites were able to provide some data related to this measure, we
considered as valid data only data from sites that used the same elements/items
in each of two years. We considered a grant site to have experienced a
decrease if data supplied reflected a decrease over baseline data provided.

The contractor for the SS/HS national evaluation used data for this measure as
part of the program evaluation. The evaluation contractor reviewed data
submitted, and worked with grantees to seek clarifying information and provide
technical assistance if grantees were having difficulty in collecting or reporting
data for this measure.

Grantees that failed to provide data were not included in the tabulation of data for
the measures. Also, grantees that did not provide data for two consecutive
project years (so that we could determine if a decrease in substance abuse had
occurred) were not included in data reported for the measure. Authorized
representatives for the grant site signed the annual performance report and, in
doing so, certified that to the best of the signer's knowledge and belief, all data in
the performance report were true and correct and that the report fully disclosed
all known weaknesses concerning the accuracy, reliability, and completeness of
the data included. Generally, the Department relied on the certification
concerning data supplied by grantees and did not conduct further reviews.

Measure 2: The percentage of SS/HS grantees that report a decrease in
students who report current (30-day) marijuana use (SS/HS - FY 2007,
2008, and 2009 cohorts)

Table 6

Cohort    FY2009    FY2010    FY2011    FY2012 FY2013       FY2013    FY2014
          Actual    Actual    Actual    Actual    Target    Actual    Target
2007      42.9      37.5      51.9      n/a       n/a       n/a       n/a
2008      50.0      43.6      58.3      45.6      n/a       n/a       n/a
2009      n/a       0         55.2      55.1      58.4      65.4      n/a

The measure. This performance measure is for the Safe Schools/Healthy
Students initiative, a joint project of the Departments of Education (ED), Health
and Human Services (HHS), and Justice. The initiative provided grants to local
educational agencies to support the development and implementation of a
comprehensive plan designed to prevent student drug use and violence and
support healthy youth development. Beginning with the FY 2007 cohort, the
project period for SS/HS grants was 48 months.

This measure, one of six for this initiative for cohorts from FY 2007 - 2009, and a
revision of the measure used by previous cohorts of grants, focuses on one of
the primary purposes of the initiative - reduced student drug use. The initiative


                                         10 

and this measure are directly related to the National Drug Control Strategy's goal
of reducing illicit drug use.

FY 2009 was the last cohort of new grants made under the program and, as the
grants were for a four-year project period, the FY 2009 cohort's last year of
continuation funding was made in FY 2012. FY 2012 was the last year of
performance data submitted for the FY 2008 cohort. FY 2013 was the last year
of performance data submitted for the FY 2009 cohort.

FY 2013 Performance Results. For the FY 2009 grant cohort, FY 2013 actual
performance data have been aggregated, and are reported in Table 6. The FY
2007 and FY 2008 cohorts of grantees projects ended prior to FY 2013, and thus
no FY 2013 data are reported. The FY 2009 cohort exceeded its FY 2013 target
set.

Analysis of survey data in the 2013 "Monitoring the Future national survey results
on drug use, 1975-2012. Volume I: Secondary school students" confirmed an
ongoing reversal of previous year declines in 30-day prevalence of use of
marijuana, with use by 12th grade students increasing from 19.4 percent in 2008
to 22.9 percent in 2012, and with use by 10th grade students increasing from
13.8 percent in 2008 to 17.0 percent in 2012. Thus, to some extent, the increase
in the percentage of SS/HS grantees that reported a decrease in students who
report current (30-day) marijuana use was at odds with national trends over the
same period, and possibly could be attributed to the SS/HS programmatic
interventions.

FY 2014 Performance Targets. Performance targets will not be set for FY 2014
as most grantees are completing unfinished grant activities in a no-cost
extension period, with varying project period lengths and differing project scope
and objectives.

Methodology. Data were collected by grantees, generally using student surveys.
Data are furnished in the second of two semi-annual performance reports
provided by grantees each project year.

The contractor for the SS/HS national evaluation used data for this measure and
from these cohorts as part of the national program evaluation. Through the FY
2011 data collection, the evaluation contractor reviewed performance data
submitted by grantees, and worked with grantees to seek clarifying information
and provided technical assistance if grantees were having difficulty in collecting
or reporting data for this measure. The contractor supplied data for the measure
after it had completed data cleaning processes.

In FY 2013, ED/HHS staff compiled and aggregated performance data from
annual performance reports submitted by grantees. If data for this measure were



                                        11 

not available at the time that performance reports were submitted, staff followed­
up with sites to attempt to obtain data for the measure.

Grantees that failed to provide data or that provided data that does not respond
to the established measure are not included in the tabulation of data for the
measures. Authorized representatives for the grant site sign the annual
performance report and, in doing so, certify that to the best of the signer's
knowledge and belief, all data in the performance report are true and correct and
that the report fully discloses all known weaknesses concerning the accuracy,
reliability, and completeness of the data included. Generally, the Department
relies on the certification concerning data supplied by grantees and does not
conduct further reviews.

Measure 3: The percentage of SS/HS grantees that report a decrease in
students who report current (30-day) alcohol use (SS/HS - FY 2007, 2008,
and 2009 cohorts)

Table 7

    Cohort     FY2009     FY2010    FY2011        FY2012   FY2013   FY2013    FY2014
               Actual    Actual     Actual        Actual   Target   Actual    Target
    2007       47.8      66.7       70.4          n/a      n/a      n/a       n/a
    2008       56.0      60.0       75.0          63.1     n/a      n/a       n/a
    2009       n/a       0          58.6          65.5     69.4     69.2      n/a


The measure. This performance measure is for the Safe Schools/Healthy
Students initiative, a joint project of the Departments of Education, Health and
Human Services, and Justice. The initiative provides grants to local educational
agencies to support the development and implementation of a comprehensive
plan designed to prevent student drug use and violence and support healthy
youth development. Beginning with the FY 2007 cohort, the project period for
SS/HS grants is 48 months.

This measure, one of six for this initiative for cohorts from FY 2007 and forward ,
focuses on the prevalence of alcohol use. While the National Drug Control
Strategy is focused most intensively on preventing the use of controlled
substances, the strategy does address the role of alcohol as a substance of
choice for teenagers. Data do suggest that early use of alcohol is more likely to
result in heavy later use of alcohol.

FY 2009 was the last cohort of new grants made under the program and, as the
grants were for a four-year project period, the FY 2009 cohort's last year of
continuation funding was made in FY 2012. FY 2012 was the last year of
performance data submitted for the FY 2008 cohort. FY 2013 was the last year
of performance data submitted for the FY 2009 cohort.


                                           12 

 FY 2013 Performance Results. For the FY 2009 grant cohort, FY 2013 actual
 performance data have been aggregated, and are reported in Table 7. The FY
 2007 and FY 2008 cohort of grantees projects ended prior to FY 2013, and thus
 no FY 2013 data are reported. For the FY 2009 cohort, there was an increase in
 the percentage of grantees that made progress related to this measure
 compared to the FY 2012 actual performance, and the FY 2013 target was
 almost met.

Analysis of survey data in the 2013 "Monitoring the Future national survey results
on drug use, 1975-2012. Volume I: Secondary school students" noted that long­
term evidence indicates that alcohol use moves much more in concert with illicit
drug use than counter to it. However, from 2007 to 2011 alcohol use among high
and college students continued its long-term decline, reaching an historic low in
the life of the study, while marijuana use was rising. 2012 was a departure from
this trend with 30-day alcohol use rising in all groups, except 81h graders, with a
4.2 percentage point increase among college students that was significant.

  FY 2014 Performance Targets. Performance targets will not be set for FY 2014
  as most grantees are completing unfinished grant activities in a no-cost
  extension period, with varying project period lengths and differing project scope
· and objectives.

Methodology. Data are collected by grantees, generally using student surveys.
Data are furnished in the second of two semi-annual performance reports
provided by grantees each project year.

The contractor for the SS/HS national evaluation used data for this measure and
from these cohorts as part of the national program evaluation. Through the FY
2011 data collection, the evaluation contractor reviewed performance data
submitted by grantees, and worked with grantees to seek clarifying information
and provided technical assistance if grantees were having difficulty in collecting
or reporting data for this measure. The contractor supplied data for the measure
after it had completed data cleaning processes.

In FY 2013, ED/HHS staff compiled and aggregated performance data from
annual performance reports submitted by grantees. If data for this measure were
not available at the time that performance reports were submitted, staff followed­
up with sites to attempt to obtain data for the measure.

Grantees that failed to provide data or that provided data that does not respond
to the established measure are not included in the tabulation of data for the
measures. Authorized representatives for the grant site sign the annual
performance report and, in doing so, certify that to the best of the signer's
knowledge and belief, all data in the performance report are true and correct and
that the report fully discloses all known weaknesses concerning the accuracy,


                                         13 

reliability, and completeness of the data included. Generally, the Department
relies on the certification concerning data supplied by grantees and does not
conduct further reviews.

                         Grants to Reduce Alcohol Abuse

Measure 1: The percentage of grantees whose target students show a
measurable decrease in binge drinking. (Grants to Reduce Alcohol Abuse
Program - FY 2007, 2008, 2009, and 2010 cohorts)

Table 8

    Cohort     FY2009 FY2010 FY2011                FY2012   FY2013 FY2013 FY2014
               Actual    Actual    Actual          Actual   Target   Actual   Target

    2007       47.0      83.0      n/a             n/a      n/a      n/a      n/a
    2008       50.7      64.0      40.3            n/a      n/a      n/a      n/a
    2009       n/a       57.1      67.0            75.0     n/a      n/a      n/a
    2010       n/a       n/a       50.0            75.0     n/a      n/a      n/a

The measure. This measure examines a key outcome for the Grants to Reduce
Alcohol Abuse (GRAA) program - reduction in binge drinking for the target
student population. Research suggests that early use of alcohol is more likely to
result in heavy later use of alcohol.

New grant awards were last made in FY 2010. Funds were not appropriated in
FY 2012 for new or continuation awards and, as a result, the FY 201 O cohort of
grantees was not provided their FY 2012 year 3 continuation award.

FY 2013 Performance Results. For the FY 2012 Performance Summary Report,
the FY 2009 cohort performance data had not been aggregated due to the large
number of grantees in no-cost extensions; the FY 2012 actual performance data
are being reported here for the first time.

FY 2013 targets were not set, nor actual performance data aggregated for any
grant cohorts, as grant projects were no longer active.

As we have received data from across cohorts for this measure and for this
program, we continue to find it difficult to discern a pattern of performance that
can serve as a basis for establishing future targets. We have carefully
considered performance reports submitted by grantees, as well as our
experience in monitoring and providing technical assistance to grantees, and
have identified some challenges that may have impeded grant performance.
Some common problems include turnover in leadership (at the authorized
representative or project director level) and challenges with collecting and
reporting valid data about the measure.


                                            14 

Another variable that might affect performance in sites is related to project
design. For example, we are uncertain how to assess the likely impact of a site
that is implementing a single research-based program versus sites that have
adopted a more comprehensive strategy that includes a community-based
intervention that complements school-based curricula. Finally, cohort size and
composition varies from cohort to cohort. In some years funding for a large
amount of new awards was available and in others only a handful of sites
received grants, as was the case in FY 2010 with a cohort of 8 grants.

Increasingly, over time, it became clear that a series of variables serve to make
each cohort unique, and that the issue of how we established targets for this
measure in the past was problematic. Given these challenges, and
improvements we made in data quality (including generally requiring grantees to
collect baseline data for their projects before interventions are implemented), we
modified our process for establishing targets.

While prior cohort performance may have provided some insights about general
patterns of performance that we could incorporate into our targeting setting
processes, we ultimately decided to establish numerical performance targets
after baseline data is received for the new cohorts. We generally entered these
targets for new grant cohorts into the Department's Visual Performance System
(VPS) as "administrative" targets (for example, baseline plus 5 percent), and then
converted the targets to numerical targets after baseline data is collected and
aggregated. We believed that this process revision helped us better match
targets to cohort performance.

FY 2014 Performance Targets. Targets have not been set for any grant cohorts
as none will be active during FY 2014.

Methodology. Data for this measure are collected by grantees and reported as
part of annual performance reports. If data for this measure are not available at
the time that performance reports are submitted, staff follow-up with sites to
attempt to obtain data for the measure. Grantees that fail to provide data are not
included in the tabulation of data for the measures. Also, grantees that did not
provide data for two consecutive project years (so that we could determine if a
decrease in binge drinking had occurred) are not included in the aggregate data
reported for the measure. Authorized representatives for the grant site sign the
annual performance report and, in doing so, certify that to the best of the signer's
knowledge and belief, all data in the performance report are true and correct and
that the report fully discloses ~II known weaknesses concerning the accuracy,
reliability, and completeness of the data included. Generally, the Department
relies on the certification concerning data supplied by grantees and does not
conduct further reviews.

ED does not mandate data collection protocols or instruments for grantees.
Grantees select a survey item that reflects the concept of binge drinking, and


                                         15 

collect and report data about that survey item as part of their performance
reports. As a result, data are not comparable across grant sites, but individual
grant sites are required to use the same survey items across performance
periods. We consider sites that have experienced a decrease in the rate of binge
drinking of one percent or greater to have achieved a measurable decrease in
binge drinking.

Initially, applicants were not required to furnish baseline data as part of their
applications. Data supplied after year one were considered baseline data for the
projects. Projects required two years of data in order to determine if a decrease
in binge drinking among target students had occurred. However, the FY 2007
and subsequent cohorts were instructed to provide baseline data in their
application, or if that data was not available, to collect it before beginning project
implementation. Thus, we were able to report on grantee and cohort
performance at the end of year one.

We have provided significantly increased guidance and technical assistance to
grantees beginning with the FY 2007 cohort, and believe that these efforts have
produced data that are of higher quality and more comparable across sites than
those of previous cohorts.

Measure 2: The percentage of grantees that show a measurable increase in the
percentage of target students who believe that alcohol abuse is harmful to their
health. (Grants to Reduce Alcohol Abuse - FY 2007, 2008, 2009, and 2010
cohorts)

Table 9

    Cohort    FY        FY        FY              FY       FY       FY       FY
              2009      2010      2011            2012     2013     2013     2014
              Actual    Actual    Actual          Actual   Taraet   Actual   Taraet
    2007      76.5      88.9      n/a             n/a      n/a      n/a      n/a
    2008      58.6      60.0      75.8            n/a      n/a      n/a      n/a
    2009      n/a       100.0     67.0            62.5     n/a      n/a      n/a
    2010      n/a       n/a       50.0            50.0     n/a      n/a      n/a


The measure. This measure examines a key outcome for the Grants to Reduce
Alcohol Abuse (GRAA) program - perception of health risk for alcohol abuse
among target students. While the National Drug Control Strategy is focused
most intensively on preventing the use of controlled substances, the Strategy
does address the role of alcohol use as a drug of choice for teenagers. Data do
suggest that changes in perceptions about risks to health resulting from alcohol
use are positively correlated with reductions in alcohol use.




                                           16 

New grant awards were last made in FY 2010. Funds were not appropriated in
FY 2012 for new or continuation awards and, as a result, the FY 2010 cohort of
grantees were not provided their FY 2012 year 3 continuation award.

FY 2013 Performance Results. For the FY 2012 Performance Summary Report,
the FY 2009 cohort performance data had not been aggregated due to the large
number of grantees in no-cost extensions; the FY 2012 actual performance data .
are being reported here for the first time.

FY 2013 targets were not set, nor actual performance data aggregated for any
grant cohorts, as grant projects were no longer active.

As we have received data from across cohorts for this measure and for this
program, we continue to find it difficult to discern a pattern of performance that
can serve as a basis for establishing future targets. We have carefully
considered performance reports submitted by grantees, as well as our
experience in monitoring and providing technical assistance to grantees, and
have identified some challenges that may have impeded grant performance.
Some common problems include turnover in leadership (at the authorized
representative or project director level) and challenges with collecting and
reporting valid data about the measure.

Another variable that might affect performance in sites is related to project
design. For example, we are uncertain how to assess the likely impact of a site
that is implementing a single research-based program versus sites that have
adopted a more comprehensive strategy that includes a community-based
intervention that complements school-based curricula. Finally, cohort size and
composition varies from cohort to cohort. In some years funding for a large
amount of new awards was available and in others only a handful of sites
received grants, as was the case in FY 2010 with a cohort of 8 grants.

Increasingly, over time, it became clear that a series of variables serve to make
each cohort unique, and that the issue of how we established targets for this
measure in the past was problematic. Given these challenges, and
improvements we have made in data quality (including generally requiring
grantees to collect baseline data for their projects before interventions are
implemented), we modified our process for establishing targets.

While prior cohort performance may have provided some insights about general
patterns of performance that we could incorporate into our targeting setting
processes, we ultimately decided to establish numerical performance targets
after baseline data is received for the new cohorts. We generally entered these
targets for new grant cohorts into the Department's Visual Performance System
(VPS) as "administrative" targets (for example, baseline plus 5 percent), and then
converted the targets to numerical targets after baseline data is collected and



                                         17 

aggregated. We believed that this process revision helped us better match
targets to cohort performance.

FY 2014 Performance Targets. Targets have not been set for any grant cohorts
as none will be active during FY 2014.

Methodology. Data for this measure are collected by grantees and reported as
part of annual performance reports. If data for this measure are not available at
the time that performance reports are submitted, staff follow-up with sites to
attempt to obtain data for the measure. Grantees that fai l to provide data are not
included in the tabulation of data for the measures. Also, grantees that did not
provide data for two consecutive project years (so that we could determine if an
increase in student perceptions of harm had occurred) are not included in the
aggregate data reported for the measure. Authorized representatives for the
grant site sign the annual performance report and, in doing so, certify that to the
best of the signer's knowledge and belief, all data in the performance report are
true and correct and that the report fully discloses all known weaknesses
concerning the accuracy, reliability, and completeness of the data included.
Generally, the Department relies on the certification concerning data supplied by
grantees and does not conduct further reviews.

ED does not mandate data collection protocols or instruments for grantees.
Grantees select a survey item that reflects the concept of perceptions of harm,
and collect and report data about that survey item as part of their performance
reports. As a result, data are not comparable across grant sites, but individual
grant sites are required to use the same survey items across performance
periods. We consider sites that have experienced an increase in the percentage
of students who believe alcohol abuse is harmful of one percent or greater to
have achieved a measurable increase for the measure.

Initially, applicants were not required to furnish baseline data as part of their
applications. Data supplied after year one were considered baseline data for the
projects. Projects required two years of data in order to determine if an increase
in perceptions of harm among target students had occurred. However, the FY
2007 and subsequent cohorts were instructed to provide baseline data in their
application, or if that data was not available, to collect it before beginning project
implementation. Thus, we were able to report on grantee and cohort
performance at the end of year one.

We have provided significantly increased guidance and technical assistance to
grantees beginning with the FY 2007 cohort, and believe that these efforts have
produced data that are of higher quality and more comparable across sites than
those of previous cohorts.




                                          18 

Measure 3: The percentage of grantees that show a measurable increase in the
percentage of target students who disapprove of alcohol abuse. (Grants to
Reduce Alcohol Abuse - 2007, 2008, 2009, and 2010 cohorts)

Table 10

Cohort     FY       FY       FY       FY          FY       FY     FY
           2009     2010     2011   2012          2013     2013   2014
           Actual   Actual   Actual Actual        Target   Actual Target
2007       47.0     88.9     n/a    n/a           n/a      n/a    n/a
2008       49.3     58.3     72.6   n/a           n/a      n/a    n/a
2009       n/a      100.0    67.0   75.0          n/a      n/a    n/a
2010       n/a      n/a      66.7   100.0         n/a      n/a    n/a

The measure. This measure examines a key outcome for the Grants to Reduce
Alcohol Abuse (GRAA) program - disapproval of alcohol abuse among target
students. While the National Drug Control Strategy is focused most intensively
on the preventing the use of controlled substances, the strategy does address
the role of alcohol use as a drug of choice for teenagers. Research does
suggest that increases in the percentage of target students who believe that
alcohol abuse is not socially acceptable are associated with declines in
consumption of alcohol. New awards were last made in FY 2010. Funds were
not appropriated in FY 2012 for new or continuation awards.

FY 2013 Performance Results. For the FY 2012 Performance Summary Report,
the FY 2009 cohort performance data had not been aggregated due to the large
number of grantees in no-cost extensions; the FY 2012 actual performance data
are being reported here for the first time.

FY 2013 targets were not set, nor actual performance data aggregated for any
grant cohorts, as grant projects were no longer active.

As we have received data from across cohorts for this measure and for this
program, we continue to find it difficult to discern a pattern of performance that
can serve as a basis for establishing future targets. We have carefully
considered performance reports submitted by grantees, as well as our
experience in monitoring and providing technical assistance to grantees, and
have identified some challenges that may have impeded grant performance.
Some common problems include turnover in leadership (at the authorized
representative or project director level) and challenges with collecting and
reporting valid data about the measure.

Another variable that might affect performance in sites is related to project
design. For example, we are uncertain how to assess the likely impact of a site
that is implementing a single research-based program versus sites that have
adopted a more comprehensive strategy that includes a community-based

                                           19 

intervention that complements school-based curricula. Finally, cohort size and
composition varies from cohort to cohort. In some years funding for a large
amount of new awards was available and in others only a handful of sites
received grants, as was the case in FY 2010 with a cohort of 8 grants.

Increasingly, over time, it became clear that a series of variables serve to make
each cohort unique, and that the issue of how we established targets for this
measure in the past was problematic. Given these challenges, and
improvements we have made in data quality (including generally requiring
grantees to collect baseline data for their projects before interventions are
implemented), we modified our process for establishing targets.

While prior cohort performance may have provided some insights about general
patterns of performance that we could incorporate into our targeting setting
processes, we ultimately decided to establish numerical performance targets
after baseline data is received for the new cohorts. We generally entered these
targets for new grant cohorts into the Department's Visual Performance System
(VPS) as "administrative" targets (for example, baseline plus 5 percent), and then
converted the targets to numerical targets after baseline data is collected and
aggregated. We believed that this process revision helped us better match
targets to cohort performance.

FY 2014 Performance Targets. Targets have not been set for any grant cohorts
as none will be active during FY 2~14.

Methodology. Data for this measure are collected by grantees and reported as
part of annual performance reports. If data for this measure are not available at
the time that performance reports are submitted, staff follow-up with sites to
attempt to obtain data for the measure. Grantees that fail to provide data are not
included in the tabulation of data for the measures. Also, grantees that did not
provide data for two consecutive project years (so that we could determine if an
increase in students disapproving of alcohol abuse had occurred) are not
included in the aggregate data reported for the measure. Authorized
representatives for the grant site sign the annual performance report and, in
doing so, certify that to the best of the signer's knowledge and belief, all data in
the performance report are true and correct and that the report fully discloses all
known weaknesses concerning the accuracy, reliability, and completeness of the
data included. Generally, the Department relies on the certification concerning
data supplied by grantees and does not conduct further reviews.

ED does not mandate data collection protocols or instruments for grantees.
Grantees select a survey item that reflects the concept of disapproval of alcohql
abuse, and collect and report data about that survey item as part of their
performance reports. As a result, data are not comparable across grant sites,
but individual grant sites are required to use the "same survey items across
performance periods. We consider sites that have experienced an increase in


                                         20 

the percentage of students who disapprove of alcohol abuse of one percent or
greater to have achieved a measurable increase for the measure.

Initially, applicants were not required to furnish baseline data as part of their
applications. Data supplied after year one were considered baseline data for the
projects. Projects required two years of data in order to determine if an increase
in disapproval of alcohol abuse among target students had occurred. However,
the FY 2007 and subsequent cohorts were instructed to provide baseline data in
their application, or if that data was not available, to collect it before beginning
project implementation. Thus, we were able to report on grantee and cohort
performance at the end of year one.

We have provided significantly increased guidance and techn ical assistance to
grantees beginning with the FY 2007 cohort, and believe that these efforts have
produced data that are of higher quality and more comparable across sites than
those of previous cohorts.

                               Student Drug Testing

Measure 1: The percentage of student drug testing grantees that experience a 5
percent reduction in current (30-day) illegal drug use by students in the target
population. (Student Drug Testing - FY 2006, 2007, and 2008 cohorts)

Table 11

Cohort     FY2009    FY2010    FY 2011    FV201 2    FY2013     FV2013      FY2014
            Actual    Actual   Actual      Actual    Target     Actual      Target
2006       12.5      57.0      n/a       n/a        n/a        n/a         n/a
2007       41.7      50.0      n/a       n/a        n/a        n/a         n/a
2008       49.0      65.0      35.5      n/a        n/a        n/a         n/a

The measure. This measure was one of two measures for the Student Drug
Testing Program grant competition. The competition provided discretionary
grants to LEAs, commun ity-based organizations, or other public and private
entities to support implementation of drug testing of students, consistent with the
parameters established by the U.S. Supreme Court or for students and their
families that voluntarily agree to participate in the student drug testing program.

Student drug testing was prominently featured between FY 2003 to 2009 in
different versions of the National Drug Control Strategy as a recommended drug
prevention intervention.

FY 2008 was the last cohort of new grant awards made under the program and,
as the grants were for a three-year project period, the FY 2008 cohort's last year
of continuation funding was made in FY 2010.



                                         21 

FY 2013 Performance Results. FY 2013 targets were not set, nor actual
performance data aggregated for any grant cohorts, as grant projects were no
longer active.

FY 2014 Pertormance Targets. No FY 2014 targets are applicable. FY 2011
was the last year of performance reporting of any of the Student Drug Testing
grantees.

Methodology. Data for the FY 2006 cohort came from the evaluation conducted
by a Department of Education contractor and were collected annually. Data for
subsequent cohorts were collected by grantees using student surveys, and
provided as part of the grantees' annual performance reports. Generally,
grantees prior to FY 2008 cohort did not use the same survey items to collect
data for this measure but, rather, self-selected survey items (often from surveys
already administered) in order to provide these data. Beginning with the FY 2008
cohort, we asked grantees to provide data for current (prior 30-day) use of
marijuana, as a proxy for illegal drug use. Beginning with the FY 2008 cohort, we
also instructed grantees to collect baseline data for this measure before
beginning with implementation of their student drug testing program.

Authorized representatives for the grant site signed the annual performance
report and, in doing so, certified that to the best of the signer's knowledge and
belief, all data in the performance report were true and correct and that the report
fully disclosed all known weaknesses concerning the accuracy, reliability, and
completeness of the data included. Generally, the Department relied on the
certification concerning data supplied by grantees and did not conduct further
reviews.

Measure 2: The percentage of student drug testing grantees that experience a 5
percent reduction in past-year illegal drug use by students in the target
population. (Student Drug Testing - FY 2006, 2007, and 2008 cohorts)

Table 12

Cohort     FY2009    FY2010    FY2011    FY2012 FY2013 FY2013 FY2014
          Actual     Actual     Actual    Actual   Target    Actual    Target
2006     12.5       57.0       n/a       n/a       n/a       n/a      n/a
2007     33.3       54.0       n/a       n/a       n/a       n/a      n/a
2008     58.0       58.0       37.7      n/a       n/a       n/a      n/a

The measure. This measure was one of two measures for the Student Drug
Testing Program grant competition . The competition provided discretionary
grants to LEAs, community-based organizations, or other public and private
entities to support implementation of drug testing of students, consistent with the
parameters established by the U.S. Supreme Court or for students and their
families that voluntarily agree to participate in the student drug testing program.


                                         22 

Student drug testing was prominently featured in annual editions of the National
Drug Control Strategy between 2003 and 2009 as a recommended drug
prevention intervention.

FY 2008 was the last cohort of new grants made under the program and, as the
grants were for a three-year project period, the FY 2008 cohort's last year of
continuation funding was made in FY 2010.

FY 2013 Performance Results. FY 2013 targets were not set, nor actual
performance data aggregated for any grant cohorts, as grant projects were no
longer active.

FY 2014 Performance Targets. No FY 2014 targets are applicable. FY 2011
was the last year of performance reporting of any of the Student Drug Testing
grantees.

Methodology. Data for the FY 2006 cohort came from the evaluation conducted
by a Department of Education contractor and were collected annually. Data for
subsequent cohorts were collected by grantees using student surveys, and
provided as part of the grantees' annual performance reports. Generally,
grantees prior to FY 2008 cohort did not use the same survey items to collect
data for this measure but, rather, self-select survey items (often from surveys
already administered) in order to provide these data. Beginning with the FY 2008
cohort, we asked grantees to provide data for past-year use of marijuana, as a
proxy for illegal drug use. Beginning with the FY 2008 cohort, we also instructed
grantees to collect baseline data for this measure before beginning with
implementation of their student drug testing program.

Authorized representatives for the grant site signed the annual performance
report and, in doing so, certified that to the best of the signer's knowledge and
belief, all data in the performance report were true and correct and that the report
fully disclosed all known weaknesses concerning the accuracy, reliability, and
completeness of the data included. Generally, the Department relied on the
certification concerning data supplied by grantees and did not conduct further
reviews .

Assertions
                         Performance Reporting System

The Department of Education has a system in place to capture performance
information accurately and that system was properly applied to generate the
performance data in this report. In instances in which data are supplied by
grantees as part of required periodic performance reports, the data that are
supplied are accurately reflected in this report.




                                        23 

Data related to the drug control programs included in this Performance Summary
Report for Fiscal Year 2013 are recorded in the Department of Education's
software for recording performance data and are an integral part of our budget
and management processes.

               Explanations for Not Meeting Performance Targets

The explanations provided in the Performance Summary report for Fiscal Year
2013 for not meeting performance targets and for recommendations for plans to
revise performance targets are reasonable given past experience, available
information, and available resources.

               Methodology for Establishing Performance Targets

The methodology described in the Performance Summary Report for Fiscal Year
2013 to establish performance targets for the current year is reasonable given
past performance and available resources .

          Performance Measures for Significant Drug Control Activities

The Department of Education has established at least one acceptable
performance measure for each Drug Control Decision Unit identified in its
Detailed Accounting of Fiscal Year 2013 Drug Control Funds.

Criteria for Assertions


No workload or participant data support the assertions provided in this report.
Sources of quantitative data used in the report are well documented. These data
are the most recently available and are identified by the year in which the data
was collected.

                           Other Estimation Methods

No estimation methods other than professional judgment were used to make the
required assertions. When professional judgment was used, the objectivity and
strength of those judgments were explained and documented. Professional
judgment was used to establish targets for programs until data from at least one
grant cohort were available to provide additional information needed to set more
accurate targets. We routinely re-evaluate targets set using professional
judgment as additional information about actual performance on measures
becomes available.




                                       24 

                               Reporting Systems

Reporting systems that support the above assertions are current, reliable, and an
integral part of the Department of Education's budget and management
processes. Data collected and reported for the measures discussed in th is report
are stored in the Department of Education's Visual Performance System (VPS).
Data from the VPS are used in developing annual budget requests and
justifications, and in preparing reports required under the Government
Performance and Results Act of 1993, as amended.




                                       25 

                              UNITED STATES DEPARTMENT OF EDUCATION
                                                   OFFICE OF I NSPECTOR GENERAL

                                                                                                        A UDIT SERVICES

                                                   February 25, 2014
Memorandum

TO:                  David Esquith
                     Director. Office of Safe and Healthy Students
                     Office of Elementary and Secondary Education

FROM:                Patrick J. Howard /s/
                     Assistant lnspcctor General for Audit

SUB.JECT:            Office oflnspcctor General's Independent Report on the U.S. Department
                     of Education's Performance Summary Report for Fiscal Year 2013. dated
                     February 25. 2014

Attached is our authentication of management's assertions contained in the U.S.
Department of Education· s Pe1formance SummWJ' Report jhr Fiscal Year 2013, dated
February 25, 2014, as required by section 705(d) of the Otlice of National Drug Control
Policy Rcauthoril.ation Act of 1998 (21 U.S.C. § I 704(d)).

Our authentication was conducted in accordance with the guidelines stated in the Office
of National Drug Control Policy Circular: Accounting ofDrug Control Funding and
Performance Summary. dated January 18. 2013.

If you have any questions or wish to discuss the contents of this authentication. please
contact Michele Weaver-Dugan. Director, Operations Internal Audit Team. at
(202) 245-694 1.




 The Department of Education's nussion is to promote student achic\ement and prcparauon for global compcutivcnc>s by fostering
                                       eduCAtional excellence and ensuring equal access.
                               UNITED STATES DEPARTMENT OF EDUCATION
                                                     OFFICE OF INSPECTOR GENERAL

                                                                                                         AUDIT SERVICES

Office of Inspector General' s Independent Report on the U.S. Department of Education·s
Performance Summarv Reporl for Fiscal Year 2013. dated Februarv 25. 2014

We have reviewed management's assertions contained in the accompanying Pe1formance
Summmy Reportfor Fiscal Year 2013. dated February 25, 2014 (Performance Summary
Report). The U.S. Department of Education's management is responsible for the
Performance Summary Report and the assertions contained therein.

Our review was conducted in accordance with generally accepted government auditing
standards for attestation review engagements. A review i.s substantially Jess in scope than
an examination, the objective of which is the expression of an opinion on management's
assertions. Accordingly. we do not express such an opinion.

We performed review procedures on the .. Performance Summary Information;'
..Assertions;' and "Criteria for Assertions"' contained in the accompanying Performance
Summary Report. In general, our review procedures were limited to inquiries and
analytical procedures appropriate for our review engagement. We did not perform
procedures related to controls over the r,cporting system noted in the attached report.

Based on our review, nothing came to our attention that caused us to believe that
management 's assertions, contained in the accompanying Performance Summary Report,
arc not fairly stated in all material respects, based upon the Office of National Drug
Control Policy Circular: Accounting ofDrug Control Funding and Pe1formam.:e
Summary, dated January 18, 2013.

                                                                Patrick J. Howard /s/ 

                                                                Assistant Inspector General for Audit 





 The Dcpanment of Education's mission is to promote student achievement and preparation for global compctiti\cness by fostering
                                      education al excellence and ensuring equal ace~ss.
